Report No. D-2009-111                    September 25, 2009




     Controls Over Information Contained in BlackBerry
                 Devices Used Within DoD
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
AIM              Asset Inventory Management
ASD(NII)/DoD CIO Assistant Secretary of Defense (Networks and Information
                     Integration)/DoD Chief Information Officer
BES              BlackBerry Enterprise Server
CIO              Chief Information Officer
CTO              Communications Tasking Order
DCMA             Defense Contract Management Agency
DISA             Defense Information Systems Agency
DLA              Defense Logistics Agency
JTF-GNO          Joint Task Force-Global Network Operations
PDA              Personal Digital Assistant
                                 INSPECTOR GENERAL
                                DEPARTMENT OF DEFENSE
                                  400 ARMY NAVY DRIVE
                             ARLINGTON, VIRGINIA 22202- 4704




                                                                        September 25, 2009

MEMORANDUM FOR ASSISTANT SECRETARY OF DEFENSE FOR NETWORKS
                 AND INFORMATION INTEGRATION/DoD CHIEF
                 INFORMATION OFFICER
               ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL
                 MANAGEMENT AND COMPTROLLER)

SUBJECT: Controls Over Information Contained in BlackBerry Devices Used Within
         DoD (Report No. D-2009-lll)


We are providing this report for your review and comment. We considered management
comments on a draft of this report when preparing the final report. The complete text of
the comments is in the Management Comments section of the report.

DoD Directive 7650.3 requires that all recommendations be resolved promptly. The
Assistant Secretary of Defense for Networks and Information IntegrationIDoD Chief
Information Officer comments on Recommendations l.a and l.b are not responsive and the
comments on Recommendations l.c through l.f are partially responsive. Therefore, we
request revised comments on Recommendations l.a through l.fby October 25,2009. The
Air Force Chief Information Officer did not provide comments prior to issuance of the final
report; therefore, we request comments on Recommendations 2.a through 2.c by
October 25,2009.

If possible, send a .pdf file containing your comments to audros@dodig.mil. Copies of
your comments must have the actual signature of the authorizing official for your
organization. We are unable to accept the /Signed/ symbol in place of the actual signature.
If you arrange to send classified comments electronically, you must send them over the
SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at (703)
604-8905 (DSN 664-8905).


                                            /~~~
                                             Paul 1. ranetto
                                             Assistant Inspector General
                                             Readiness, Operations, and Support
Report No. D-2009-111 (Project No. D2008-D000LC-0131.000)                    September 25, 2009


               Results in Brief: Controls Over Information
               Contained in BlackBerry Devices Used
               Within DoD

What We Did                                             What We Recommend
Our objective was to determine whether the              We recommend that the ASD(NII)/DoD CIO:
Military Services and other Defense agencies have            revise the DoD BlackBerry Security
controls in place to prevent unauthorized                      Checklist to require all DoD BlackBerry
disclosure of information contained in wireless                device passwords to, at a minimum,
devices. Specifically, we reviewed controls to                 comply with DoD Instruction 8500.2 and
protect information contained in BlackBerry                    develop a written plan to implement the
devices as these are the primary Personal Digital              use of two-factor authentication;
Assistant (PDA) devices used by the Military                 ensure that the correct risk levels are
Services and other Defense agencies. We visited                assigned to all BlackBerry security controls
various Air Force, Defense Contract Management                 and ensure that only high and medium risk
Agency (DCMA), Defense Information Systems                     levels are designated as “required” and
Agency, and Defense Logistics Agency locations               clarify the specific wireless topics required
to assess their controls over BlackBerry devices.              in annual information assurance training.
We also reviewed DoD criteria governing                 We recommend that the Air Force Chief
BlackBerry devices.                                     Information Officer (CIO):
                                                             reconcile the PDA password requirements
What We Found                                                  in Air Force Instruction 33-200.
DoD Components did not always implement                      implement controls to ensure PDA
adequate controls to properly secure information               inventory transactions are recorded in the
on BlackBerry devices. For example,                            official inventory system
    passwords did not always meet the length                ensure all security settings are validated
       and complexity requirements of DoD                      and a written authority to operate is
       Instruction 8500.2;                                     issued for the BlackBerry Enterprise
    the Assistant Secretary of Defense                        Server that services Andrews and Bolling
       (Networks and Information                               Air Force Bases.
       Integration)/DoD Chief Information
       Officer (ASD[NII]/DoD CIO) allowed               Management Comments and
       DoD Components to use their discretion in        Our Response
       not implementing required controls, such
       as encrypting data stored on BlackBerry          The ASD(NII)/DoD CIO comments were partially
       devices, properly implementing user              responsive. DCMA provided comments on the
       agreements, and requiring passwords to           Finding and recommendations. We did not
       expire and devices to lock out after a           receive comments from the Air Force CIO prior to
       specified period of time; and                    issuance of the final report. We request that the
    annual information assurance training did          ASD(NII)/DoD CIO provide revised comments on
       not always include wireless topics in            the final report by October 25, 2009 and that the
       accordance with DoD Directive 8100.02.           Air Force CIO also provide comments by
                                                        October 25, 2009. Please see the
                                                        recommendations table on page ii.



                                                    i
Report No. D-2009-111 (Project No. D2008-D000LC-0131.000)               September 25, 2009

Recommendations Table

Management                        Recommendations                    No Additional
                                  Requiring Comment                  Comments Required
Assistant Secretary of Defense    1.a, 1.b, 1.c, 1.d, 1.e, and 1.f
(Networks and Information
Integration)/DoD Chief
Information Officer
Air Force Chief Information       2.a, 2.b, and 2.c
Officer


Please provide comments by October 25, 2009.




                                            ii
Table of Contents

Introduction                                                                       1

       Objectives                                                                  1
       Background                                                                  1
       Review of Internal Controls                                                 3

Finding. DoD BlackBerry Requirements                                               4

       Recommendations, Management Comments, and Our Response                     12

Appendices

       A. Scope and Methodology                                                   18
              Prior Coverage                                                      19
       B. Defense Contract Management Agency Comments                             21

Management Comments

Assistant Secretary of Defense (Networks and Information Integration)/DoD Chief
     Information Officer                                                          24
Defense Contract Management Agency                                                27
Introduction
Objectives
The overall objective of the audit was to determine whether the Military Services and
other Defense agencies have controls in place to prevent unauthorized disclosure of
information contained in wireless devices. Specifically, we reviewed controls to protect
information contained in BlackBerry devices as these are the primary Personal Digital
Assistant (PDA) devices used by the Military Services and other Defense agencies. See
Appendix A for the scope and methodology and prior audit coverage.

Background
PDAs are small, portable electronic devices with similar functional use as a personal
computer with the convenience of portability. However, with the convenience of
portability comes the risk of loss, which could lead to the compromise of DoD
information. Therefore, DoD Components must implement proper security controls to
prevent unauthorized disclosure.
A BlackBerry device incorporates features, such as an organizer (address book, calendar,
and to-do lists) and instant messaging with wireless services, such as e-mail, mobile
telephone, and web browsing. The use of BlackBerry devices is prevalent among high-
level officials such as senior management, personnel requiring access to DoD information
technology resources during non duty hours, and personnel who are frequently separated
from the office. Because BlackBerry devices can introduce security vulnerabilities
exposing Government information systems to compromise, BlackBerry devices must be
properly secured.
The BlackBerry Enterprise Server (BES) permits a DoD-compliant information system
Security policy to be enforced on all BlackBerry devices. The BES provides a
centralized link between BlackBerry devices, BlackBerry applications, and wireless
networks, while integrating devices into an organization’s e-mail system.

Criteria Governing BlackBerry Devices
DoD Directive 8100.02, “Use of Commercial Wireless Devices, Services, and
Technologies in the Department of Defense (DoD) Global Information Grid (GIG),”
April 14, 2004, provides policy and responsibilities for the security of commercial
wireless devices used throughout DoD. The Assistant Secretary of Defense (Networks
and Information Integration)/DoD Chief Information Officer (ASD[NII]/DoD CIO) is
responsible for developing DoD wireless policy.
The Defense Information Systems Agency (DISA) issued the, “DoD Wireless Security
Technical Implementation Guide, DISA Version 5, Release 2,” November 15, 2007
(DoD Wireless Security Technical Implementation Guide), to implement DoD 8100.02.




                                            1
DISA also issued the, “DoD Wireless Security Technical Implementation Guide,
BlackBerry Security Checklist, Version 5, Release 2.1,” November 15, 2007, (November
2007 DoD BlackBerry Security Checklist) to provide minimum baseline BlackBerry
security guidance for DoD. DISA also updated the November 2007 DoD BlackBerry
Security Checklist and issued the, “DoD Wireless Security Technical Implementation
Guide, BlackBerry Security Checklist, Version 5, Release 2.2,” September 15, 2008
(September 2008 DoD BlackBerry Security Checklist). The DoD Wireless Security
Technical Implementation Guide and BlackBerry Security Checklist outlines the
responsibilities of the Designated Approving Authority 1 as well as the following
standards related to the protection of information on BlackBerry devices:
       password protection for BlackBerry devices,
       encryption of data stored on BlackBerry devices,
       signed user agreements for BlackBerry devices,
       inventory records of BlackBerry devices, and
       physical security of the BES.
On June 5, 2008, the Joint Task Force-Global Network Operations (JTF-GNO)2 issued
Communications Tasking Order (CTO) 08-009, “Implementation Timelines for
Encryption of Sensitive Unclassified Data-at-Rest (DAR) within the DoD,” establishing
“data-at-rest” encryption instructions and milestones for reporting encryption status.
Data-at-rest encryption is the encryption of information stored on hard drives to prevent
unauthorized access to that information.

BlackBerry Devices Used in DoD
As of January 2008, DoD Components reported approximately 63,000 BlackBerry
devices used within DoD that have the ability to process sensitive information. The
Air Force, Defense Contract Management Agency (DCMA), DISA, and Defense
Logistics Agency (DLA) accounted for over 55 percent (34,961) of the BlackBerry
devices reported to DoD. Table 1 shows the number of BlackBerry devices reported by
Air Force, DCMA, DISA, and DLA.




1
  The Designated Approving Authority has the authority to assume responsibility for operating an
information system at an acceptable level of risk. Once the Designated Approving Authority deems the
level of risk to be acceptable, they grant the system authority to operate.
2
  The Director of DISA is also the commander of JTF-GNO and is responsible for directing the operation
and defense of the DoD network.


                                                   2
       Table 1. Devices Reported by Air Force, DCMA, DISA, and DLA in
                                 January 2008
            DoD Components                        Number of Devices
 Air Force                                             30,000
 DCMA                                                           3,000
 DISA                                                             793
 DLA                                                            1,168
 Total                                                         34,961
We reviewed BlackBerry controls at the Air Force, DCMA, DISA, and DLA.

Review of Internal Controls
DoD Instruction 5010.40 “Managers Internal Control (MIC) Program Procedures,”
January 4, 2006, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses for the DoD. Specifically, DoD did not always implement adequate controls
to properly secure information on BlackBerry devices. See the Finding paragraph for
more detailed explanation. Implementing Recommendations 1.a.-f. and 2.a.-c. should
correct the internal control weaknesses identified in the report. We will provide a copy of
this report to the senior officials responsible for internal controls in the ASD(NII)/DoD
CIO, the Air Force, DCMA, DISA and DLA.




                                            3
Finding. DoD BlackBerry Requirements
DoD Components did not always implement adequate controls to properly secure
information on BlackBerry devices. Specifically:

        passwords did not always meet the length and complexity requirements of DoD
         Instruction 8500.2, “Information Assurance (IA) Implementation,”
         February 6, 2003;
        ASD(NII)/DoD CIO allowed DoD Components to use their discretion in not
         implementing required controls, such as encrypting (turning data into an
         unintelligible form) data stored on BlackBerry devices, properly implementing
         user agreements, and requiring passwords to expire and devices to lock out after a
         specified period of time;
        annual information assurance training did not always include wireless topics, nor
         was it clear what wireless topics should have been included in the annual
         information assurance training; and
        Air Force official inventory levels did not always reflect individual site inventory
         levels.

DoD Components did not always implement adequate controls because DoD issued
conflicting guidance. In addition, Air Force did not always perform adequate oversight
in regard to BlackBerry inventory levels. As a result, DoD cannot ensure that
information contained in BlackBerry devices is adequately protected against
unauthorized access.

Password Requirements
Passwords did not always meet the length and complexity requirements of DoD
Instruction 8500.2. Specifically, Instruction 8500.2 states that DoD information systems3
are accessed through the use of an individual identifier (for example, a user name) and a
password. When a user login identifier is used with a password to access a system
processing sensitive information, Instruction 8500.2 requires the password to be at least
eight characters including at least one upper case letter, one lower case letter, one
number, and one special character. Because a BlackBerry device can contain sensitive
information and just a password can provide access to the information in the BlackBerry
device, a BlackBerry device password should, at a minimum, follow the length and
complexity requirements of DoD Instruction 8500.2. The Air Force, DCMA, DISA, and
DLA sites that we visited did not always implement passwords in accordance with DoD
requirements to protect sensitive information. For example, when we began the audit, the
BESs at Andrews and Bolling Air Force Bases, DCMA, and DLA Headquarters were set


3
  DoD Instruction 8500.2 defines an information system as a set of information resources organized for
collection, storage, processing, maintenance, use, dissemination, disposition, display, or transmission of
information.


                                                      4
to enforce only passwords that were at least five characters,4 as opposed to at least eight
characters as required by DoD Instruction 8500.2. In addition, the BESs at DISA and
Wright-Patterson Air Force Base were set to enforce passwords that were at least six
characters and eight characters, respectively. However, with the exception of Andrews
and Bolling Air Force Bases, none of the BESs at the sites we visited were set to enforce
passwords that contained at least one uppercase letter, one lowercase letter, one number,
and one special character.

DoD BlackBerry password requirements in the September 2008 DoD BlackBerry
Security Checklist conflicted with the password requirements in DoD Instruction 8500.2.
Even though BlackBerry devices can contain sensitive information, the September 2008
DoD BlackBerry Security Checklist permits the minimum BlackBerry device password
to be only five characters, consisting of at least one letter and one number.

The DoD Wireless Security Technical Implementation Guide states that it creates an
environment that meets DoD security requirements for protecting sensitive information,
but its minimum BlackBerry password requirements do not meet DoD security
requirements.

Air Force Chief Information Officer Password Guidance
The Air Force Chief Information Officer (CIO) issued unclear guidance regarding
password requirements for PDAs. Specifically, Air Force Instruction 33-200,
“Information Assurance (IA) Management,” December 23, 2008, directs PDA users to
the following three sets of guidance, each having different password requirements.

       DISA Wireless Security Technical Implementation Guide requires PDA
        passwords to be at least five characters.
       DISA Secure Remote Computing Security Technical Implementation Guide refers
        to password requirements in DoD Instruction 8500.2, which requires passwords to
        be at least eight characters with at least one upper case letter, one lower case
        letter, one number, and one special character for access to information systems
        processing sensitive information.5
       Air Force Manual 33-223, “Identification and Authentication,” requires Air Force
        passwords to be at least nine characters with at least two upper case letters, two
        lower case letters, two numbers, and two special characters.

The different publications with different password requirements can create confusion
among Air Force personnel regarding which password requirements they should follow


4
  The BES at Andrews and Bolling Air Force Bases was also set to require passwords for four BlackBerry
devices to be at least eight characters.
5
  The DISA Secure Remote Computing Security Technical Implementation Guide requires PDA users who
are not performing system administration functions to secure the PDA by following, to the fullest extent
possible, the password requirements in DoD Instruction 8500.2.



                                                   5
for PDAs. This could lead to users not protecting information on PDAs to the extent
intended by the Air Force CIO. The Air Force CIO should reconcile the various PDA
password requirements in Air Force Instruction 33-200 to determine specific password
requirements that PDA users must follow and adjust Air Force Instruction 33-200
accordingly.

Access Control Within DoD
ASD(NII)/DoD CIO representatives acknowledged that they would prefer to use two-
factor authentication, such as a Common Access Card with a Personal Identification
Number or a Common Access Card with biometrics, such as a finger print scan to access
BlackBerry devices. Although the representatives stated they were not aware of any
viable commercial versions of these technologies for BlackBerry devices, DoD Security
Technical Implementation Guide, “Access Control in Support of Information Systems,”
Version 2, Release 2, December 26, 2008, requires two-factor authentication to access
information systems processing sensitive information. In addition, DoD Directive
8521.01E, “Department of Defense Biometrics,” February 21, 2008, states that the
ASD(NII)/DoD CIO must ensure that biometrics are developed for access control and
effectively integrated into information assurance efforts. However, the ASD(NII)/DoD
CIO representatives said they had no written plan with milestones to implement two-
factor authentication for accessing information in BlackBerry devices.

Because BlackBerry devices are mobile computing devices that can contain sensitive
information, ASD(NII)/DoD CIO should revise the DoD BlackBerry Security Checklist
to, at a minimum, require all DoD BlackBerry devices to have a password at least eight
characters, including one upper case letter, one lower case letter, one number, and one
special character in compliance with DoD Instruction 8500.2. In addition,
ASD(NII)/DoD CIO should develop a written plan to implement the use of two-factor
authentication for accessing information on BlackBerry devices.

Discretion in Implementing Controls
ASD(NII)/DoD CIO allowed DoD Components to use their discretion in not
implementing required controls, such as encrypting data stored on BlackBerry devices;
properly implementing user agreements; and requiring passwords to expire and devices to
lock out after a specified period of time. The September 2008 DoD BlackBerry Security
Checklist designated mandatory controls as “required” and discretionary controls as
“optional.” In addition, the September 2008 DoD BlackBerry Security Checklist also
assigned a risk level to each control to indicate the risk to BlackBerry security when an
organization does not implement the control. These risk levels relate to DoD Instruction
8510.01, “DoD Information Assurance Certification and Accreditation Process
(DIACAP),” November 28, 2007, which permits a Designated Approving Authority to




                                           6
approve a system to operate without correcting security weaknesses with low risk. 6
However, a Designated Approving Authority must satisfactorily mitigate a security
weakness with medium risk and must not approve a system to operate without correcting
security weaknesses with high risk. The September 2008 DoD BlackBerry Security
Checklist designated some low risk controls as “required,” which permitted the
Designated Approving Authority to approve the system to operate without implementing
some “required” controls. For example, Air Force and DCMA did not always implement
“required” controls that were assigned a low level of risk.

Conflicting Guidance
ASD(NII)/DoD CIO officials did not fully reconcile requirements from the September
2008 DoD BlackBerry Security Checklist to risk levels in DoD Instruction 8510.01.
According to DISA representatives, the intent of the September 2008 DoD BlackBerry
Security Checklist was for DoD Components to implement all “required” security
settings; however, according to the September 2008 DoD BlackBerry Security Checklist,
some “required” controls were designated as low risk. As a result, the Designated
Approving Authority could use discretion on whether or not to implement these controls.
The ASD(NII)/DoD CIO should ensure that the correct risk levels are assigned to all
BlackBerry security controls. For example, data-at-rest encryption is assigned a low
level of risk; however, this control can prevent unauthorized access to information, which
is more consistent with a higher level of risk. In addition, DISA assigned a low level of
risk to the user agreement and no longer requires the seven topics; however the
November 2007 BlackBerry Security Checklist assigned a medium level of risk to this
control and ASD(NII)/DoD CIO representatives said the user agreement control should
not be assigned a low level of risk. As a result, as part of the review of risk levels
assigned to all BlackBerry controls, ASD(NII)/DoD CIO should assign a higher risk level
to the data-at-rest encryption and user agreement controls and also require that the seven
topics be included in user agreements. After ensuring that the correct risk levels have
been assigned to all BlackBerry controls, ASD(NII)/DoD CIO should then ensure that
only high and medium risk controls are designated as “required” and ensure that controls
identified as low risk are not designated as “required.” Once ASD(NII)/DoD CIO
resolves these issues within the DoD BlackBerry Security Checklist, DoD Components
should review their controls to ensure they have fully met established requirements.

Encryption Requirements
Air Force and DCMA did not always encrypt data stored on BlackBerry devices.
Specifically, Andrews, Bolling, and Wright-Patterson Air Force Bases and DCMA did
not encrypt data stored on their BlackBerry devices, which was a “required” control in
the November 2007 DoD BlackBerry Security Checklist. The November 2007 DoD
BlackBerry Security Checklist states that information assurance officers must ensure that


6
 DoD Instruction 8510.01 designates risk levels using severity categories of I, II, or III with severity
category I designating the greatest risk level. For this audit report, we use the term high risk to represent
severity category I, medium risk to represent severity category II, and low risk to represent severity
category III.


                                                       7
they encrypt all data stored on the BlackBerry devices. In addition, the
JTF-GNO CTO 08-009 states that all DoD Components must meet specific milestones
for encrypting the data stored in their BlackBerry devices in accordance with the
November 2007 DoD BlackBerry Security Checklist, which assigned a low level of risk
to this “required” control.

User Agreements
DCMA did not properly educate BlackBerry users on their roles and responsibilities when
using the BlackBerry device. Specifically, the November 2007 DoD BlackBerry Security
Checklist requires that information assurance officials develop a user agreement between the
component and BlackBerry users. The November 2007 DoD BlackBerry Security Checklist
states that officials should have users of BlackBerry devices read and acknowledge that they
have accepted their roles and responsibilities regarding safeguarding information on
BlackBerry devices. The user agreement must include the following seven topics:
       1. type of access required by the user;
       2. responsibilities, liabilities, and security measures involved in the use of the
          BlackBerry device;
       3. incident handling and reporting procedures along with a designated point of
          contact;
       4. responsibility for damage caused to a Government system or data through
          negligence or a willful act;
       5. general security requirements and practices;
       6. for classified devices, user responsibility to adhere to DoD policy in regard to
          facility clearances, protection, storage, distribution, etc.; and
       7. Government-owned hardware and software is used for official duties only, where
          the employee is the only individual authorized to use the device.
Although the November 2007 BlackBerry Security Checklist assigned a medium level of
risk to the user agreement requirement, the September 2008 DoD BlackBerry Security
Checklist assigned a low level of risk to the requirement. In April 2009, DISA revised
the DoD BlackBerry Security Checklist to recommend but no longer require the seven
topics to be in the user agreement.

Password Expiration and Device Lock Out Requirements
Andrews and Bolling Air Force Bases and DCMA did not always configure their BESs to
require BlackBerry device passwords to expire after a specified period of time. In
addition, Air Force and DCMA did not always configure their BESs to require




                                             8
BlackBerry devices to lock out after a specified period of time.7 Specifically, the
September 2008 DoD BlackBerry Security Checklist requires that BlackBerry users
change their passwords every 90 days and requires BlackBerry devices to lock out after
60 minutes, regardless of activity or inactivity. However, the September 2008 DoD
BlackBerry Security Checklist assigned a low level of risk to the requirements.

Annual Information Assurance Training
Annual information assurance training did not always include wireless topics, nor was it
clear what wireless topics should have been included in the annual information assurance
training. DoD Directive 8100.02 directs the heads of DoD Components to ensure the
Designated Approving Authority incorporates wireless topics in annual information
assurance training. However, Andrews, Bolling, and Wright-Patterson Air Force Bases
and DCMA did not include wireless topics in their annual information assurance training.
Although DISA and DLA annual information assurance training included some wireless
topics, we are not certain that the training met the requirements of DoD
Directive 8100.02 because ASD(NII)/DoD CIO did not clarify the specific wireless
topics that should be included in the training.
As a result, DoD cannot be certain that wireless users are fully aware of security risks
associated with wireless devices such as BlackBerry devices. Therefore, ASD(NII)/DoD
CIO needs to clarify the specific wireless topics required by DoD Directive 8100.02 and
establish controls to help ensure that DoD wireless users receive annual information
assurance training that includes these required wireless topics.

BlackBerry Devices Inventory
Component official inventory levels did not reflect individual site inventory levels.
Specifically, the Andrews, Bolling, and Wright-Patterson Air Force Bases official
BlackBerry inventory levels in the Asset Inventory Management (AIM) System, did not
reflect the local base inventory levels. Air Force Instruction 33-112, “Information
Technology Hardware Asset Management,” April 7, 2006, requires the Information
Technology Asset Group to account for BlackBerry devices in the AIM System for their
official property records. According to the AIM system; Andrews, Bolling, and Wright-
Patterson Air Force Bases had a total of 1,589 BlackBerry devices.




7
 During the audit, Andrews and Bolling Air Force Bases configured their BES to require BlackBerry
devices to lock out after a specified period of time. Although Wright Patterson Air Force Base did not
configure their BES to require BlackBerry devices to lock after a specified period of time, they plan to
implement this configuration.


                                                      9
However, the Andrews, Bolling, and Wright-Patterson Air Force Bases’ local inventory
records showed that they had a total of 2,861 BlackBerry devices in use. Table 2 shows
the difference between inventory records at Andrews, Bolling, and Wright-Patterson Air
Force Bases.


                           Table 2. Air Force BlackBerry Inventories
                                                      Air Force
Air Force Base            Air Force AIM        Bases’ Local Inventory
   Location               System Records              Records                Difference
Andrews1                                34                         233                199
Bolling1                                   102                      292                 190
Wright                                   1,453                    2,336                 883
Patterson2
Total                                    1,589                    2,861               1,272
1
    AIM and local inventory BlackBerry records as of May 2008.
2
    AIM and local inventory BlackBerry records as of July 2008.


The official inventory records did not reflect the individual site records because there was
a lack of communication between the Andrews, Bolling, and Wright-Patterson Air Force
Bases staff that maintained and configured their BlackBerry devices and the staff that
managed their information technology assets. Although we reviewed only the inventory
records for Andrews, Bolling, and Wright-Patterson Air Force Bases, this issue could be
systemic because the Air Force instruction applies to the entire Air Force.

As a result of questionable inventory records within the Air Force, we cannot be certain
that the Air Force reported an accurate number of BlackBerry devices with encryption as
requested by JTF–GNO. In response to the January 2008 DoD data call, the Air Force
reported 30,000 BlackBerry devices to ASD(NII)/DoD CIO; however, the AIM System
showed only 14,566 BlackBerry devices in use by the Air Force as of April 2008.
According to Air Force officials, the Air Force based the 30,000 BlackBerry device count
on sales data from the manufacturer of the BlackBerry device versus the number of
devices in their AIM System. Therefore, we cannot be certain that the 30,000 or the
14,566 is the total amount of BlackBerry devices in use by the Air Force. The Air Force
should implement controls to ensure all transactions that affect the inventory of
BlackBerry devices are recorded in their AIM System, and then use the system to
accurately respond to official data calls such as the encryption data call from the
ASD(NII)/DoD CIO in 2008.

Actions Taken During the Audit
During the audit, Andrews, Bolling, and Wright-Patterson Air Force Bases took steps to
implement the BES configurations for encryption. We verified that Andrews and Bolling
Air Force Bases configured the BES to encrypt data stored on BlackBerry devices.
However, Wright-Patterson elected not to activate the setting that specifies the level of


                                                     10
encryption on external files systems. Even though the Air Force took steps to encrypt
data stored on their BlackBerry devices, the Designated Approving Authority for
Andrews and Bolling Air Force Bases had not completed testing to validate all security
settings and had not yet issued a written authority to operate. Therefore, the Designated
Approving Authority for Andrews and Bolling Air Force Bases should validate all
security settings and issue a written authority to operate. DCMA also took steps to
encrypt data stored on BlackBerry devices by enabling the content protection feature on
their BESs. However, DCMA excluded the address book from content protection.
Andrews, Bolling, and Wright-Patterson Air Force Bases and DCMA also took steps to
implement the BES configurations for password requirements. For example, both
DCMA and the Air Force configured the passwords to expire in 90 days or less in
accordance with the DoD BlackBerry Security Checklist.

Conclusion
As a result of unclear guidance from DoD and inadequate oversight by DoD
Components, DoD cannot ensure information contained in BlackBerry devices is
adequately protected from unauthorized access. The lack of clear guidance created
confusion regarding whether DoD Components had to implement mandatory DoD
controls. If DoD Components do not implement these mandatory controls, sensitive
information on BlackBerry devices is more vulnerable to unauthorized disclosure and
exploitation because of the BlackBerry device’s portability and the requirement of only a
password to gain access. Therefore, DoD should ensure that information contained in
BlackBerry devices is adequately protected against unauthorized access.




                                            11
Recommendations, Management Comments, and Our
Response
Defense Contract Management Agency Comments and our
Response
Although DCMA was not required to comment, summaries of their management
comments and our response are in Appendix B.

Comments on the Report
The Principal Director, Deputy Assistant Secretary of Defense for Cyber, Information,
and Identity Assurance (the Principal Director) provided comments on the draft audit
report for the DoD ASD(NII)/DoD CIO. Because the Principal Director references his
comments to support his comments on Recommendation 1.a, we integrated the comments
under Recommendation 1.a.

1. We recommend that the DoD Assistant Secretary of Defense for Networks and
Information Integration/DoD Chief Information Officer:

       a. Revise the DoD BlackBerry Security Checklist to, at a minimum, require
all DoD BlackBerry devices to have a password that is at least eight characters,
including one upper case letter, one lower case letter, one number, and one special
character in compliance with DoD Instruction 8500.2.

Assistant Secretary of Defense (Networks and Information
Integration)/DoD Chief Information Officer Comments
Although the Principal Director agreed that there should be a uniform length and
complexity requirement for passwords for BlackBerry devices throughout the DoD, the
Principal Director stated that password guidance for information systems in DoD
Instruction 8500.2 does not directly apply to BlackBerry devices. Specifically, the
Principal Director said that BlackBerry devices are not a “full-fledged” DoD information
system because BlackBerry devices:

      operate on commercial wireless carriers that are not attached to the DoD network,
      store and process only unclassified DoD data,
      provide no direct network connection,
      provide no access to network resources,
      provide no network log-on capability,
      receive wireless communications encrypted at the BES, and
      are not considered physical nodes on the Global Information Grid.

In addition, the Principal Director stated that when the original Security Technical
Implementation Guide was published in 2005, no DoD policy specified password length
and complexity requirements for devices that stored and processed unclassified DoD data
but were not directly connected to the Global Information Grid. Instead, BlackBerry


                                           12
password requirements were derived using a 2001 protection profile that specified a
maximum probability of guessing a system Personal Identification Number for a given
Personal Identification Number length and number of access attempts. The Principal
Director stated that these policy positions would be clarified in upcoming revisions to
DoD Directive 8500.01E and DoD Instruction 8500.2.

Our Response
The Principal Director comments are not responsive. A DoD BlackBerry device that
stores and processes DoD information and receives wireless communications that are
encrypted at a BES meets the DoD Instruction 8500.2 definition of an information
system.8 In addition, a DoD BlackBerry device can also contain sensitive DoD
information, such as personally identifiable information. As a result, we disagree with
the Principal Director’s position that password requirements for information systems in
DoD Instruction 8500.2 do not directly apply to BlackBerry devices. DoD
Instruction 8500.2 provides password length and complexity requirements when a user
login identifier is used with a password to access a system processing sensitive
information. Because just a password could provide access to sensitive information in a
BlackBerry device, a DoD BlackBerry device password should, at a minimum, follow the
length and complexity requirements of DoD Instruction 8500.2. Furthermore, the
Principal Director agreed there should be a uniform length and complexity requirement
for passwords for BlackBerry devices throughout the DoD. We request that the Principal
Director reconsider his position and provide revised comments in response to the final
report.

       b. Develop a written plan to implement the use of two-factor authentication
for accessing information on BlackBerry devices.

Assistant Secretary of Defense (Networks and Information
Integration)/DoD Chief Information Officer Comments
The Principal Director partially agreed, stating that while two-factor authentication is
desirable for BlackBerry devices, there are currently no suitable second factor products
available and none are on the horizon. The Principal Director further stated he would
develop an appropriate course of action when such products become available.

Our Response
The comments from the Principal Director are not responsive. We disagree that no action
should be taken until a suitable second factor product becomes available. DoD Security
Technical Implementation Guide, “Access Control in Support of Information Systems,”
Version 2, Release 2, December 26, 2008, requires two-factor authentication to access
information systems processing sensitive information. In addition, DoD


8
  DoD Instruction 8500.2 defines an information system as a set of information resources organized for
collection, storage, processing, maintenance, use, sharing, dissemination, disposition, display, or
transmission of information. DoD requires that a BES be used with BlackBerry devices, which constitutes
a set of information resources.


                                                  13
Directive 8521.01E, “Department of Defense Biometrics,” February 21, 2008, states that
the ASD(NII)/DoD CIO must ensure that biometrics are developed for access control and
effectively integrated into information assurance efforts. Although DoD BlackBerry
devices can contain sensitive information, the Principal Director comments provide no
information on DoD efforts to ensure that technologies, such as biometrics, are developed
and effectively integrated to implement two-factor authentication for BlackBerry devices.
A documented plan with milestones would provide a mechanism for DoD to establish a
goal, focus DoD efforts, and measure progress on achieving two-factor authentication to
protect sensitive information on DoD BlackBerry devices. We request that the Principal
Director reconsider his position and provide revised comments in response to the final
report.

       c. Ensure that the correct risk levels are assigned to all BlackBerry security
controls and ensure that only high and medium risk levels are designated as
“required.”

Assistant Secretary of Defense (Networks and Information
Integration)/DoD Chief Information Officer Comments
The Principal Director partially agreed, stating that he will coordinate with DISA to
ensure that the correct risk levels are assigned to BlackBerry controls. However, the
Principal Director stated that the fact that a security setting is “required” in a Security
Technical Implementation Guide does not automatically mean it should be high or
medium risk. The issue is the consequence of not applying the settings relative to impact.
The consequences of not applying a setting for a low impact control are obviously less
than those for a high impact control. The Principal Director further stated that security
settings that are required should be applied unless there are compelling operational
reasons for not applying the settings. In such a case, the risk should be accepted by the
Designated Approving Authority and the rationale explained in a Plan of Action and
Milestones.

Our Response
The Principal Director comments are partially responsive. We agree that the Principal
Director should coordinate with DISA to ensure the correct risk levels are assigned to
BlackBerry controls and that risk levels should be assigned based on the consequence of
not applying the control. Although the September 2008 DoD BlackBerry Security
Checklist indicates that required controls are mandatory, DoD Instruction 8510.01 gives
the Designated Approving Authority the option to accept the risk and authorize a system
to operate without correcting low risk weaknesses. Therefore, low risk controls should
not be designated as required in the DoD BlackBerry Security Checklist. We request that
the Principal Director reconsider his position and provide revised comments in response
to the final report. The revised comments should also include an estimated date for
completion of management actions.




                                            14
d. Assign a higher risk level to the data-at-rest encryption and user agreement
controls.

Assistant Secretary of Defense (Networks and Information
Integration)/DoD Chief Information Officer Comments
The Principal Director partially agreed, stating that the DoD Information Assurance
Certification and Accreditation Process Technical Advisory Group is currently reviewing
and updating Severity Category definitions. The data-at-rest encryption vulnerability and
user agreement vulnerability will be reviewed and categorized appropriately when the
new definitions are published.

Our Response
The Principal Director comments are partially responsive. We agree that Severity
Categories should be reviewed and updated; however, DoD should carefully consider the
risk level assigned to the data-at-rest encryption and user agreement controls. For
example, data-at-rest encryption is assigned a low level of risk in the September 2008
DoD BlackBerry Security Checklist even though this control could prevent unauthorized
access to information, which is more consistent with a higher level of risk. In addition,
user agreement is assigned a low level of risk in the September 2008 DoD BlackBerry
Security Checklist; however, the November 2007 BlackBerry Security Checklist assigned
a medium level of risk to the user agreement. Furthermore, ASD(NII)/DoD CIO
representatives stated that the user agreement control should not be assigned a low level
of risk. We agree that DoD should not assign a low level of risk to user agreements.
Furthermore, DoD should also not assign a low level of risk to data-at-rest encryption.
We request that the Principal Director provide revised comments on Recommendation
1.d in response to the final report. The revised comments should include an estimated
date for completion of management actions.

       e. Require that the seven topics listed in the April 2009 DoD BlackBerry
Security Checklist be included in user agreements.

Assistant Secretary of Defense (Networks and Information
Integration)/DoD Chief Information Officer Comments
The Principal Director agreed, stating that this recommendation was implemented by
DISA in the June 26, 2009, release of the Wireless Security Technical Implementation
Guide BlackBerry Security Checklist (V5R3) (June 2009 DoD BlackBerry Security
Checklist).

Our Response
The comments from the Principal Director are only partially responsive because the June
2009 DoD BlackBerry Security Checklist does not clearly require that all seven topics be
included.




                                           15
Specifically, for three of the seven topics, the June 2009 DoD BlackBerry Security
Checklist states that:

      the agreement should contain the type of access required by the user;
      the agreement should contain the responsibilities, liabilities, and security
       measures; and
      the policy should contain general security requirements and practices.

The November 2007 DoD Wireless Security Technical Implementation Guide states that
the word “should” is a recommendation while the word “will” indicates mandatory
compliance. In addition, the November 2007 and September 2008 DoD BlackBerry
Security Checklists use the word “will” for the three topics above. We request that the
Principal Director reconsider his position and provide revised comments in response to
the final report. The revised comments should include an estimated date for completion
of management actions.

        f. Clarify the specific wireless topics required by DoD Directive 8100.02 and
establish controls to help ensure users of DoD wireless devices receive annual
information assurance training that includes wireless topics.

Assistant Secretary of Defense (Networks and Information
Integration)/DoD Chief Information Officer Comments
The Principal Director disagreed, stating that mandating specific training in a DoD policy
limits the flexibility of the policy and types of training that can be provided for users and
administrators. The Principal Director further stated that using the Security Technical
Implementation Guides and associated checklists, which are more frequently updated to
identify specific wireless training requirements from year-to-year and ensuring those
topics are covered, is more beneficial to the security posture than a DoD policy. The
Principal Director also stated that the September 2008 release of the Wireless Security
Technical Implementation Guide BlackBerry Security Checklist (V5R2.2) consolidated
user training requirements into a single vulnerability.

Our Response
The comments from the Principal Director are partially responsive. We agree that the
Security Technical Implementation Guides and associated checklists could be used to
identify wireless topics for annual training. However, the September 2008 DoD
BlackBerry Security Checklist only includes a control to train BlackBerry users on
specific topics before the user is issued a BlackBerry device, but the control does not
require that those topics also be used in annual information assurance training. In
addition, the Principal Director’s comments did not specify what controls would be
established to help ensure that users of wireless devices receive annual information
assurance training that includes wireless topics. We request that the Principal Director
reconsider his position and provide revised comments in response to the final report. The
revised comments should also include an estimated date for completion of management
actions.



                                             16
2. We recommend that the Air Force Chief Information Officer:
      a. Reconcile the various Personal Digital Assistant password requirements in
Air Force Instruction 33-200 to determine specific password requirements that
Personal Digital Assistant users must follow and adjust Air Force Instruction 33-200
accordingly.
       b. Implement controls to ensure that all transactions that affect the inventory
of BlackBerry devices are recorded in their Asset Inventory Management System
and use the system to accurately respond to official data calls, such as the
encryption data call from the Assistant Secretary of Defense (Networks and
Information Integration) DoD Chief Information Officer in 2008.
      c. Ensure that all security settings are validated and a written authority to
operate is issued covering the BlackBerry Enterprise Server that services Andrews
and Bolling Air Force Bases.


Management Comments Required
We did not receive comments from the Air Force CIO prior to issuance of the final report.
We request that the ASD(NII)/DoD CIO provide revised comments on the final report by
October 25, 2009 and that the Air Force CIO also provide comments by October 25, 2009.




                                            17
Appendix A. Scope and Methodology
We conducted this performance audit from February 2008 through July 2009 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our finding and
conclusion based on our audit objectives.
As discussed in the Background, DoD Components reported approximately 63,000
BlackBerry devices used within DoD that have the ability to process sensitive
information. We focused the audit on the Air Force, DCMA, DISA and DLA because
they accounted for over 55 percent (34,961) of the BlackBerry devices reported to DoD.
We visited various Air Force, DCMA, DISA and DLA locations to assess their controls
over BlackBerry devices. Specifically, we assessed:
      inventory records to assess their accuracy;
      system security authorization agreements to determine whether the Designated
       Approving Authority approved the BlackBerry system for use;
      DoD Component user agreements to determine whether the agreement contained
       the subjects required by the DoD BlackBerry Security Checklist;
      each DoD Component’s annual information assurance training courses to
       determine whether it contained wireless topics, as required by DoD Directive
       8100.02;
      BES policy settings at each DoD Component to determine whether the password
       settings were in compliance with the DoD BlackBerry Security Checklist and to
       determine whether each DoD Component had implemented data-at-rest
       encryption, as required by the JTF-GNO CTO 08-009; and
      the physical security of each DoD Component’s BES to ensure the server was
       protected from unauthorized access.
We reviewed the following primary criteria governing BlackBerry devices:
      DoD Directive 8100.02, “ Use of Commercial Wireless Devices, Services, and
       Technologies in the DoD Global Information Grid,” April 14, 2004;
      DoD Wireless Security Technical Implementation Guide, Version 5, Release 2,
       November 15, 2007;
      DoD Wireless Security Technical Implementation Guide, BlackBerry Security
       Checklist, Version 5, Release 2.1, November 15, 2007;
      DoD Wireless Security Technical Implementation Guide, BlackBerry Security
       Checklist, Version 5, Release 2.2, September 15, 2008; and
      Joint Task Force Global Network Operations Communications Tasking Orders.
We obtained assistance from the Quantitative Methods and Analysis Division in selecting
a sample of users to review at specific Air Force, DCMA, DISA, and DLA locations.


                                           18
Specifically, the Quantitative Methods and Analysis Division selected a stratified sample
of 971 devices out of a universe of 4,374 BlackBerry devices to determine whether the
Air Force, DCMA, DISA, and DLA Blackberry devices were configured in accordance
with the BES settings for password character length and inventory controls. Due to the
inability to test the entire sample because of the transient nature of the BlackBerry users
and identification of clearer ways to present the information we did not use the results
from the sample.

Use of Computer-Processed Data
We used computer processed data to determine which DoD Components we would visit
to test controls over information contained in BlackBerry devices. The DoD Components
reported to ASD(NII)/DoD CIO that, as of January 2008, DoD used approximately
63,000 BlackBerry devices that contained sensitive information. We used this universe
to determine the DoD Components that used the greatest number of BlackBerry devices.
After reviewing Air Force inventory records, we cannot be certain that the Air Force
reported an accurate number of BlackBerry devices with encryption to ASD(NII)/DoD
CIO, which affected the overall accuracy of BlackBerry devices reported to
ASD(NII)/DoD CIO. We did not have the resources to review the accuracy of inventory
records reported by all DoD Components that made up the entire database of 63,000
devices. Although the total number of BlackBerry devices reported to ASD(NII)/DoD
CIO may not be accurate, it did not affect the overall results and conclusions made in this
report. Specifically, we limited the use of information reported to ASD(NII)/DoD CIO to
Background and scope information.

Prior Coverage
During the last five years, the Government Accountability Office (GAO) and the DoD
Inspector General (DoD IG) have issued six reports discussing the security controls over
wireless devices. Unrestricted GAO reports can be accessed over the Internet at
http://www.gao.gov. Unrestricted DoD IG reports can be accessed at
http://www.dodig.mil/audit/reports.

GAO
GAO Report No. GAO-08-525, “Federal Agency Efforts to Encrypt Sensitive
Information Are Under Way, but Work Remains,” June 27, 2008
GAO Report No. GAO-08-343, “Protecting Personally Identifiable Information,”
January 25, 2008
GAO Report No. GAO-07-935T, “Agencies Report Progress, but Sensitive Data Remain
at Risk,” June 7, 2007
GAO Report No. GAO-06-833T, “Preventing and Responding to Improper Disclosures
of Personal Information,” June 8, 2006
GAO Report No. GAO-05-383, “Federal Agencies Need to Improve Controls over
Wireless Networks,” May 17, 2005



                                            19
DoD IG
DoD IG Report No. D-2006-052, “DoD Organization Information Assurance
Management of Information Technology Goods and Services Acquired Through
Interagency Agreements,” February 23, 2006




                                       20
Appendix B. Defense Contract Management
Agency Comments
The DCMA Executive Director for Information Technology and CIO (DCMA CIO)
commented on the Finding and recommendations. Based on DCMA CIO comments, we
revised the finding discussion to state that DCMA excluded the BlackBerry address book
from content protection. For the full text of DCMA CIO comments, see the Management
Comments section of the report.

DCMA Comments on Password Compliance
DCMA CIO agreed that DCMA did not always meet the password length and complexity
requirements of DoD Instruction 8500.2 to protect sensitive information. However, the
DCMA CIO noted that the DCMA was in compliance with the DoD BlackBerry Security
Checklist password complexity and length requirements.

Our Response
DCMA met password length and complexity requirements in accordance with the DoD
BlackBerry Security Checklist. However, because BlackBerry devices can contain
sensitive DoD information, we recommend that ASD(NII)/DoD CIO revise the DoD
BlackBerry Security Checklist to require passwords for BlackBerry devices to be in
accordance with the DoD Instruction 8500.2 for protecting sensitive information.

DCMA Comments on Implementing Discretionary Controls
DCMA CIO agreed that the DCMA Designated Approving Authority did not always
implement “required” controls that were assigned a low risk. The DCMA CIO noted that
DCMA used their discretion in not implementing some controls assigned a low level of
risk as permitted by DoD Instruction 8510.01.

Our Response
DoD Instruction 8510.01 allowed DCMA to use their discretion in not implementing
“required” controls assigned a low level of risk. As a result, we recommend that DoD
ensure that the correct risk levels are assigned to all BlackBerry security controls and
ensure that only high and medium risk levels are designated as “required.”

DCMA Comments on Encryption of Data Stored on BlackBerry
Devices
DCMA CIO partially agreed that DCMA did not always encrypt data stored on
BlackBerry devices. Specifically, the DCMA CIO noted that during the audit, DCMA
encrypted all data on their BlackBerry devices except the address book. The DCMA CIO
stated that the control was assigned a low risk, which allowed them to use their discretion
in not implementing the control.




                                            21
Our Response
The control to encrypt data stored on BlackBerry devices was assigned a low risk, which
allowed DCMA personnel to use their discretion in implementing the control. As the
report states, DCMA encrypted the data stored on their BlackBerry devices, excluding the
address book. Therefore, because encrypting data stored on BlackBerry devices can
prevent unauthorized access to information, we recommend that DoD assign a higher risk
level to the data-at-rest encryption control.

DCMA Comments on BlackBerry User Agreements
DCMA CIO partially agreed that DCMA did not properly educate BlackBerry users on
their roles and responsibilities when using the BlackBerry device. Specifically, DCMA
CIO stated that the DCMA Computer Security Awareness Training (annual information
assurance training) included the required seven user agreement topics and was substituted
for the BlackBerry user agreement. DCMA CIO further stated that the DCMA annual
information assurance training has included the seven user agreement topics since 2004.

Our Response
In July 2008, DCMA management was informed that their FY 2008 annual information
assurance training did not include the seven user agreement topics. DCMA management
stated that they were not aware of the BlackBerry user agreement requirement.
Subsequently, DCMA management developed additional annual information assurance
training material, which included six of seven user agreement topics.

DCMA Comments on Password Expiration and Device Lock out
DCMA CIO agreed that DCMA did not always configure their BES to require
BlackBerry device passwords to expire and lock out after a specified period of time.
DCMA CIO noted that the September 2008 DoD BlackBerry Security Checklist assigned
a low level of risk to these requirements. DCMA CIO stated that during the course of the
audit, DCMA implemented the password lockout requirement.

Our Response
The password expiration and device lockout controls were assigned a low risk, which
allowed DCMA to use their discretion in implementing the control. However, as the
report states, DCMA took steps to implement the BES configurations for password
requirements.

DCMA Comments on Annual Information Assurance Training
DCMA CIO disagreed with the statement that the DCMA annual information assurance
training did not always include wireless topics. Specifically, the CIO noted that although
the DCMA annual information assurance training did not specifically address BlackBerry
devices, the training has always included wireless topics.

Our Response
In July 2008, DCMA management was informed that their FY 2008 annual information
assurance training did not include wireless topics. Subsequently, DCMA management


                                           22
implemented additional annual information assurance training material, which included
wireless topics.

DCMA Comments on Encrypting the BlackBerry Address Book
DCMA CIO partially agreed with the statement that DCMA permitted its users to not
encrypt their address book. Specifically, the CIO noted that DCMA did not encrypt the
address book.

Our Response
Based on DCMA CIO comments, we revised the Finding discussion to state, “DCMA
excluded the address book from content protection.”

Defense Contract Management Agency Comments on
the Recommendation
DCMA CIO agreed with Recommendations 1.a-c and 1.f. DCMA CIO partially agreed
with Recommendation 1.d., stating that the user agreement should be assigned a low level
of risk and periodic training is more effective than one-time user agreements. However,
the DCMA CIO did not agree with Recommendation 1.e., stating that the implementation
of Recommendation 1.f would be sufficient.

Our Response
User agreements are particularly important for mobile and remote users because there is a
high risk of lost, theft, or compromise. A signed user agreement helps to ensure that
users are made aware of risks and proper procedures for BlackBerry devices. In addition,
the November 2007 BlackBerry Security Checklist assigned a higher level of risk to user
agreements, and ASD(NII)/DoD CIO representatives stated that user agreements should
not be assigned a low level of risk.




                                           23
Assistant Secretary of Defense (Networks and Information
Integration/Chief Information Officer) Comments

                                                           Final Report
                                                            Reference




                   Click to add JPEG file




                                  24
Click to add JPEG file




               25
Click to add JPEG file




               26
Defense Contract Management Agency Comments




                 Click to add JPEG file




                                27
                         Revised page 6




Click to add JPEG file




               28
Click to add JPEG file




               29
Click to add JPEG file




               30
                         Revised page 11




Click to add JPEG file




               31
Click to add JPEG file




               32
